                                                      U.S. Department of Justice

                                                      United States Attorney
                                                      District of Maine

                                                      100 Middle Street                    (207) 780-3257
                                                      6th Floor, East Tower           TTY (207) 780-3060
                                                      Portland, ME 04101              Fax (207) 780-3304
                                                                                    www.usdoj.gov/usao/me




For Immediate Release                                 Contact: David B. Joyce
October 5, 2011                                       Assistant U.S. Attorney
                                                      (207) 780-3257


                 Westbrook Woman Pleads Guilty to Making False Statements

        Portland, Maine: United States Attorney Thomas E. Delahanty II announced today that
Nasteho Sharif, of Westbrook, Maine, pled guilty before Judge D. Brock Hornby, in U.S. District
Court in Portland to one count of making false statements on immigration applications and two
counts of making false statements on benefit applications.

        Court records revealed that in August 2003, Sharif entered the United States purporting to be
someone else and never disclosed her true identity to immigration authorities. Sharif was admitted
to the United States as a refugee when in fact she was an imposter.

       In September 2003, Sharif applied for a Social Security Number claiming that she was
lawfully admitted to the United States as a refugee. Soon after her arrival in the United States,
Sharif moved to Maine and applied for federally funded benefits including housing, MaineCare,
Temporary Assistance for Needy Families, and the Supplemental Nutrition Assistance Program.
In two benefit applications, Sharif falsely represented that she was a lawfully admitted refugee
and provided her fraudulently obtained Social Security Number. As a result of these
applications, Sharif received about $44,000 in federally funded benefits.

        In October 2009, Sharif submitted an application to adjust her immigration status to that
of a lawful permanent resident. This application contained a false representation that Sharif
lawfully entered the United States as a refugee and also contained the fraudulently obtained
Social Security Number.

        Sharif faces a maximum sentence of five years in prison for each count, a fine of up to
$250,000, and full restitution to the programs from where she illegally obtained the government
benefits.

        U.S. Attorney Delahanty attributed the success of the investigation to the cooperative
investigative efforts of the U.S. Departments of Homeland Security – Immigration and Customs
Enforcement, Health and Human Services, Housing and Urban Development and Agriculture, the
U.S. Social Security Administration and Federal Bureau of Investigation and the Maine Department
of Health and Human Services.

                                                   ###
